   July 29, 2002




Information
System Security
User Authentication Protection at
Central Design Activities
(D-2002-135)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this evaluation report, visit the home page of the
  Inspector General of the Department of Defense at www.dodig.osd.mil/audit/reports
  or contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Evaluations

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                OAIG-AUD (ATTN: AFTS Evaluation Suggestions)
                   Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                          Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CDA                   Central Design Activity
DISA                  Defense Information Systems Agency
FIPS                  Federal Information Processing Standards
NIST                  National Institute of Standards and Technology
OMB                   Office of Management and Budget
         Office of the Inspector General of the Department of Defense
Report No. D-2002-135                                                      July 29, 2002
  (Project No. D2000PT-0121.001)

       User Authentication Protection at Central Design Activities

                                   Executive Summary

Who Should Read This Report And Why? Officials and administrators who are
responsible for DoD information systems should read this report. The report explains
the extent of transmitting user passwords in plain text while accessing software
development environments and the vulnerabilities associated with it.

Background. A Central Design Activity is defined as a designated organization within
a Component that has responsibility for designing, converting, programming, testing,
documenting, or subsequently maintaining computer operating or applications software
for use at more than one location. We evaluated authentication protection at an Army,
a Navy, and an Air Force Central Design Activity.

Central Design Activities use software development environments to develop and
maintain the software for which they are responsible. A software development
environment is an integrated suite of tools to aid the development of software in a
particular programming language or for a particular application.

Logging on to the vast majority of computing systems, including software development
environments, is protected by passwords. The person logging on must supply a user
name plus the password associated with that user name. The system evaluates the
password to verify the user’s identity claim. This process is called authentication.
Password authentication mechanisms work if passwords are kept secret at all stages.
During a previous evaluation, we confirmed at one central design activity that user
names and passwords were transmitted in plain text to software development
environments located at the Defense Information Systems Agency Defense Enterprise
Computing Centers. Readily available software would permit an attacker to capture the
transmitted user name and password for possible unauthorized accesses.

Results. User names and passwords were transmitted in plain text over unsecured
networks on 15 of 26 software development environments at 3 Central Design
Activities. As a result, the 15 software development environments have an increased
risk of unauthorized access, unauthorized changes to DoD software, and loss of
accountability. In addition, all unclassified DoD systems could be similarly affected.
Additional policy was needed to ensure authentication information was protected during
transmission over unsecured networks. See the Finding section for the detailed
recommendation.




                                            i
We had previously reported a similar problem in DoD Inspector General Report
No. D-2000-058 “Identification and Authentication Policy”, December 20, 1999. The
Office of the Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) had not completed actions to issue policy to address the issue.

Management Comments. The Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) concurred with the recommendation and stated that
information assurance policy will be updated to require unclassified and classified
systems protect authentication information during transmission by including it in the
new information assurance DoD Instruction 8500.bb. A discussion of management
comments is in the Finding section of the report and the complete text is in the
Management Comments section.

Evaluation Response. The Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) comments were responsive. We request that the
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
provide additional comments by September 24, 2002, on when the proposed policy
updates will be available to review for consistency with standards and guidance from
the National Institute of Standards and Technology.




                                          ii
Table of Contents

Executive Summary                                                         i


Background                                                               1


Objective                                                                2


Finding
     Authentication Vulnerability                                        3

Appendixes
     A. Scope and Methodology                                             9
          Prior Coverage                                                  9
     B. Military Department Central Design Activities                    11
     C. Report Distribution                                              12

Management Comments
     Assistant Secretary of Defense (Command, Control, Communications,
       and Intelligence)                                                 15
Background
    In Inspector General of the Department of Defense Report No. D-2001-046,
    “Evaluation of Information Assurance at Central Design Activities,” February
    7, 2001, we confirmed at a Defense Agency central design activity (CDA) that
    user names and passwords were transmitted in plain text over unsecured
    networks to software development environments. Readily available software
    would permit an attacker to capture the transmitted user name and password for
    possible unauthorized accesses. Because of concern about security issues we
    expanded our review to the Military Departments.

    Central Design Activities. A CDA is defined as a designated organization,
    within a DoD Component, that has responsibility for designing, converting,
    programming, testing, documenting, or subsequently maintaining computer
    operating or applications software for use at more than one location. The
    Army, the Navy, and the Air Force have a total of 17 CDAs. See Appendix B
    for the CDA list.

    For this evaluation, we visited the Software Engineering Center - Meade (Army)
    and the Fleet Material Support Office (Navy). We collected information
    assurance data from these CDAs and from the Materiel Systems Group (Air
    Force). Other DoD agencies have CDAs also. The Marine Corps, the Defense
    Finance and Accounting Service, the Director for Information and Technology,
    and the Defense Logistics Agency list CDA organizations.

           Software Engineering Center - Meade. The Software Engineering
    Center – Meade in Fort Meade, Maryland, is a direct reporting unit of the
    Software Engineering Center, Communications and Electronics Command,
    U.S. Army Materiel Command. The Software Engineering Center – Meade has
    76 employees and provides life-cycle support of software products.

            Fleet Material Support Office. The Fleet Material Support Office in
    Mechanicsburg, Pennsylvania, is a major field organization of the Naval Supply
    Systems Command. The Fleet Material Support Office has more than 900
    employees and provides information technology products and services to the
    Navy, DoD, and other Federal organizations. Their systems integrate supply,
    financial, maintenance, procurement, and other logistics functions through
    networks, telecommunications, and interrelated databases.

           Materiel Systems Group. The Materiel Systems Group, Wright-
    Patterson Air Force Base, Ohio, is a direct reporting unit of the Electronic
    Systems Center, Air Force Materiel Command. The Materiel Systems Group
    supports the Air Force information goals through acquiring, developing,
    maintaining, reengineering, and providing technical services for information
    systems. The Materiel Systems Group has 576 employees and manages more
    than 160 of the Air Force Materiel Command’s logistics information systems.

    Software Development Environments. Central Design Activities use software
    development environments to develop and maintain the software for which they

                                       1
    are responsible. A software development environment is an integrated suite of
    tools to aid the development of software in a particular programming language
    or for a particular application. A software development environment includes
    the facilities, networks, hardware, software, firmware, procedures, and
    documentation needed to perform software engineering. The software may
    include programming tools, documentation tools, debugging tools, test tools,
    source code management tools, and database management systems.

    System User Authentication. Logging on to the vast majority of information
    systems, including software development environments, is protected by
    passwords. The person logging on must supply a user name plus a password
    associated with that user name. The system evaluates the password to verify the
    user’s identity claim. This process is called authentication. Password
    authentication works when the passwords are kept secret at all stages. Secrecy
    can be lost when passwords are entered, transmitted, and stored. When
    passwords are transmitted in plain text, they are vulnerable to electronic
    eavesdropping.

    Prior Audit Coverage. Inspector General of the Department of Defense
    Report No. D-2000-058, “Identification and Authentication Policy,”
    December 20, 1999, references the Assistant Secretary of Defense (Command,
    Control, Communications, and Intelligence) memorandum on “Year 2000 and
    the Importance of Adherence to Department of Defense Information Security
    Policy,” May 5, 1999. The memorandum recommended that all personnel
    using DoD systems comply with the guidance in AI-26, chapter 11, and
    particularly section 5.1.1. We used the referenced AI-26 guidance to determine
    whether security policies of various DoD Components were uniform. Of the 18
    AI-26 identification and authentication requirements evaluated, none addressed
    the vulnerability of transmitting passwords in plain text or set requirements for
    password protection while being transmitted for logon. The results illustrated
    wide discrepancies between the various policies, which highlighted the need for
    uniform DoD requirements for identification and authentication controls. The
    report recommended the Assistant Secretary of Defense (Command, Control,
    Communications, and Intelligence) develop interim guidance to establish
    minimum security requirements covering identification and authentication, and
    accelerate the reissuance of a governing DoD directive. The extended time
    needed to coordinate DoD guidance to address the issues has delayed
    implementation of the recommendations.

Objective
    The objective of this evaluation was to assess the extent of the transmission of
    software development environment user names and passwords in plain text and
    how this vulnerability was addressed.




                                        2
            Authentication Vulnerability
            At the three CDAs we evaluated, the user names and passwords were
            transmitted over unsecured networks to their software development
            environment hosts. The CDAs reported that in 15 of 26 software
            development environments, the user passwords were transmitted in plain
            text. Passwords were transmitted in plain text because DoD information
            assurance policy did not require protection of authentication information
            during transmission to unclassified systems and did not require National
            Institute of Standards and Technology security guidance to be followed,
            as required by Office of Management and Budget Circular No. A-130.
            As a result, the 15 software development environments have an increased
            risk of unauthorized access, unauthorized changes to DoD software, and
            loss of accountability. In addition, because of the lack of explicit DoD
            policy on this matter, all unclassified DoD systems could be similarly
            affected.

Vulnerability, Threat, and Safeguard
     The concepts of vulnerability, threat, and safeguard make up a framework for
     thinking about computer security. Vulnerability is a weakness of a system that
     would allow system security to be violated. A threat is a circumstance or event
     that could cause harm by violating security. A threat often exploits a
     vulnerability. A safeguard is any technique, procedure, or other measure that
     reduces vulnerability. Some threats aim at safeguards such as passwords.

     Reliable authentication mechanisms are critical to the security of any automated
     information system. In the past, it was relatively easy to protect computer
     systems because they were typically installed in centralized computing facilities.
     Because the terminals used to access the computer were usually in the same
     building, only those persons having physical access to the building had use of
     the terminals. However, this level of physical control is no longer viable
     because of the proliferation of networked computer systems. Networking makes
     it more difficult to identify system users and increases opportunities for
     unauthorized parties to eavesdrop on legitimate user and remote host computer
     sessions. User passwords were sometimes transmitted through the network in
     plain text form. If an attacker were able to eavesdrop on the user’s session, the
     attacker could record the user’s password or other critical authentication data.
     The attacker could pose as a valid user by logging on the remote host using the
     recorded authentication data.

     Monitoring network information is called “sniffing.” Software is readily
     available for monitoring network traffic, primarily for the purpose of network
     performance management and problem diagnosis. The same software is often
     quite effective for capturing passwords during network transmissions.
     Unauthorized sniffers can be extremely dangerous to network security because
     they are virtually impossible to detect and can be inserted almost anywhere in
     the network. Attempts to use firewalls to solve these security problems assume
     that “the bad guys” are on the outside, which is often a wrong assumption.

                                         3
    Insiders carry out most of the seriously damaging incidents of computer crime.
    Some systems apply a cryptographic algorithm to scramble (encrypt) the
    password before transmission so that the plain text password is not exposed.
    However, an attacker could record the encrypted password and use it to gain
    access to the host computer. In either case, the host computer cannot
    distinguish between the attacker and a valid user, and access is granted.

    One-time password technology uses passwords that, if intercepted, cannot be
    used for future access. One approach to one-time passwords is to have the
    remote host provide challenge information, such as a word for one-time use,
    when an authorized user connects. The challenge information and user
    password are plugged into an algorithm, which generates the response that the
    remote host verifies. With this approach, the password is never transmitted
    over the network, nor is the challenge used twice. Some approaches use
    passwords combined with time slots and a time synchronized host. Others use a
    card system with stored numbers and the remote host uses a matching list of
    numbers.

User Name and Password Transmissions
    At the three CDAs we evaluated, the user names and passwords were
    transmitted over unsecured networks to their software development environment
    hosts. The CDAs reported that in 15 of 26 software development environments,
    the user passwords were transmitted in plain text. Of the 11 software
    development environments with protected logon passwords, 10 used encryption
    features provided by the commercial software tools in their software
    development environments. One development project used a separate and
    dedicated network to mitigate the plain text password risk sufficiently and was
    considered adequately protected. Other risk reduction approaches, such as
    switched networks and firewalls, were not sufficient to protect the plain text
    passwords from an insider attack. One-time passwords from a smart card,
    token, or encrypted challenge/response dialog offered increased protection
    because the transmitted password was good for just one use. These solutions
    were only granted to privileged users such as system programmers, network
    administrators, and database administrators.

    Transmitting logon passwords in plain text to the host computer was not unique
    to software development environments. The DISA Field Security Office and the
    Defense Enterprise Computing Center at Mechanicsburg observed that most
    system user logon passwords were transmitted in plain text.

    The National Bureau of Standards, now known as the National Institute of
    Standards and Technology (NIST), identified the vulnerability of passwords
    transmitted in plain text over unsecured networks in the Federal Information
    Processing Standards (FIPS) Publication 83, “Guideline on User Authentication
    Techniques for Computer Network Access Control,” September 1980. They
    warned of wiretapping and electronic eavesdropping and recommended a
    process that encrypted passwords differently each time the encryption process
    was used. FIPS Publication 190, “Guideline for the Use of Advanced
    Authentication Technology Alternatives,” September 1994 and NIST Special
    Publication 800-12, “An Introduction to Computer Security: The NIST

                                       4
    Handbook,” October 1995 both contain extensive information on the password
    transmission vulnerability and possible safeguards. The threat was described as
    electronic monitoring and the safeguards were updated to include authentication
    tokens and biometrics. Since 1980, the message has been that organizations
    should protect authentication data transmitted over public or unsecured
    networks.

Information Assurance Requirements and Guidance
    Federal Policy. Office of Management and Budget (OMB) Circular
    No. A-130, February 8, 1996, establishes policy for the management of Federal
    information resources. Circular No. A-130 states that agencies will protect
    Government information commensurate with the risk and magnitude of harm
    that could result from the loss, misuse, or unauthorized access to, or
    modification of, information. Circular No. A-130 tasks the Secretary of
    Commerce to develop and issue Federal Information Processing Standards
    (FIPS) and guidelines for Government information technology. Circular
    No. A-130 requires agencies to use Federal Information Processing Standards
    where appropriate or required. Appendix III of Circular No. A-130, “Security
    of Federal Automated Information Resources,” states that agencies shall
    implement and maintain a program to assure that adequate security is provided
    for all agency information in general support systems and major applications.
    Each agency’s program shall implement policies, standards, and procedures that
    are consistent with Government-wide policies, standards, and procedures issued
    by the Office of Management and Budget, the Department of Commerce, and
    General Services Administration, and the Office of Personnel Management.
    Appendix III further states that agencies should assure that each system
    appropriately uses effective security products and techniques, consistent with
    standards and guidance from NIST. The November 30, 2000, update to
    Circular No. A-130 requires the agency annual Information Technology Capital
    Plan to explain any planned or actual variance from NIST security guidance.

    DoD Policy. The primary DoD information assurance policy is DoD Directive
    5200.28, “Security Requirements for Automated Information Systems,” March
    1988. DoD Directive 5200.28 states that unclassified information in automated
    information systems shall be safeguarded against tampering, loss, and
    destruction, and shall be available when needed. DoD Directive 5200.28
    references OMB Circular No. A-130 for suggested safeguards for unclassified
    information but includes no references to Federal Information Processing
    Standards or requirements to implement NIST security guidance. The minimum
    safeguards for automated information systems that process classified and
    sensitive unclassified information require the positive identification of each user
    before authorizing access to the system. The policy does not establish a baseline
    for protection of authentication information when used to logon to hosts over
    unsecured networks.

    Air Force Manual 33-223, “Identification and Authentication,” June 1998 was
    the only Component policy to address the transmission of passwords. The
    manual states:

                                         5
               Protect passwords during transmission at the same level required for
               the system or data the password is protecting. Passwords are
               typically sent from a terminal to the system by a communication line.
               Unless the line is physically protected or encrypted, the password is
               vulnerable to disclosure by wiretapping and/or sniffers. Prevent this
               vulnerability by electronic protection or password encryption.
               Increasing the password length and changing it more often can
               mitigate this vulnerability.

    The policy discusses the transmission vulnerability but is not clear about
    protecting passwords.

    The DoD Chief Information Officer Guidance and Policy Memorandum 6-8510,
    “Department of Defense Global Information Grid Information Assurance,”
    June 2000 sets user access to mission support or administrative data at the basic
    robustness level. Basic robustness is equivalent to good commercial practice
    and is the lowest level of security services described in Memorandum 6-8510.
    The basic robustness level of authenticated access control includes digital
    signature (public key encryptography based), challenge/response identification
    and authentication, or preplaced keying material. Although the memorandum
    has expired, it is still being used and it shows the intended direction for DoD
    information assurance policy.

Unprotected Transmission of Authentication Information
    The GAO/AIMD-98-274 report, “Financial Management, Improvements
    Needed in Air Force Vendor Payment Systems and Controls,” September 1998
    identified systems that are vulnerable to penetration by unauthorized internal
    users because vendor payment system passwords and user names are transmitted
    across the local network and communication links in plain text. Readily
    available software would permit any user to read vendor payment system
    passwords and user names. Thus, a clerk could obtain the passwords and user
    names of employees with higher access and use this information to enter the
    vendor payment system and perform all payment processing functions.
    Technological controls could be used to improve user authentication procedures,
    such as a smart card.

    The June 7, 2001, Security Wire Digest reports that an attacker gained access to
    the server of a commercial software development organization and accessed
    their source code repositories. Security specialists and administrators
    determined the extent of the intrusion, repaired the damage, and brought the
    server back online. There was no evidence that any code was affected. The
    attacker had subverted the client code at a remote site and captured the logon
    name and password of a user who logged onto the server. Once the attacker
    was accepted as an authorized user, the attacker used a weakness of the server
    system to gain root privileges. At that point, the attacker modified the client
    and server systems to record user names and passwords. Some insider
    knowledge may have helped the attacker select the remote site and modify the
    systems.



                                            6
    It has long been recognized that the greatest harm to systems and their data has
    come from authorized individuals engaged in improper activities, whether
    intentional or accidental. In every system, a number of technical, operational,
    and management controls are used to prevent and detect harm. Such controls
    include individual accountability. Accountability is normally accomplished by
    identifying and authenticating users of the system and subsequently tracing
    actions on the system to the user who initiated them. If an attacker
    impersonates an authorized user, accountability will identify the authorized user,
    not the attacker. The attacker could make unauthorized changes to the system
    or the data.



Summary
    When user names and passwords are transmitted over unsecured networks in
    plain text, they are vulnerable to electronic eavesdropping. This vulnerability
    has been a known security risk for years and solutions are available. However,
    15 of 26 software development environments we reviewed continue to operate
    with this vulnerability. NIST security standards address this vulnerability, and
    the OMB Circular No. A-130 requires the use of these standards in Federal
    agency information assurance programs. However, DoD policies do not
    reference or require compliance with NIST security standards and do not require
    protection of the passwords when transmitted to unclassified hosts. The
    unprotected user name and password can be captured and used to impersonate
    the authorized user for unauthorized access to the system, and could result in
    unauthorized changes to the system or the data. In addition, because of the lack
    of explicit DoD policy on this matter, all unclassified DoD systems could be
    similarly affected.

Recommendation, Management Comments, and Evaluation
  Response
    We recommend that the Assistant Secretary of Defense (Command,
    Control, Communications, and Intelligence) update DoD information
    assurance policy to require unclassified systems to protect authentication
    information during transmission over unsecured networks and to use
    security products and techniques that are consistent with standards and
    guidance from the National Institute of Standards and Technology.

    Management Comments. The Assistant Secretary of Defense (Command,
    Control, Communications, and Intelligence) (ASD[C3I]) concurred with the
    recommendation and stated that information assurance policy will be updated in
    the new DoD Instruction 8500.bb by including the requirement for unclassified
    as well as classified systems to protect authentication information during
    transmission. Specifically, the new DoD Instruction 8500.bb will incorporate
    words to protect authentication information during transmission “both as a

                                        7
responsibility of users and in the appropriate controls relating to the treatment of
individual identification and authentication.”

Evaluation Response. The ASD(C3I) comments are responsive. In response to
the final report, we request that the ASD(C3I) provide dates when the proposed
policy updates will be available to review for consistency with standards and
guidance from the National Institute of Standards and Technology.




                                     8
Appendix A. Scope and Methodology
    Work Performed. We evaluated authentication protection in 26 software
    development environments at 3 Central Design Activities. We developed two
    questionnaires, one to be used for each software development environment and
    the other to determine the security policies and procedures in effect for the
    organizations. We collected answers to the policy questionnaire from all
    organizations that we contacted during this evaluation. The software
    development environment questionnaires were collected from the Central Design
    Activities that we contacted. We also reviewed relevant policy at the Federal,
    DoD, and Services levels.
    We analyzed the questionnaire results, documents, and referenced web sites.
    We reviewed prior audit and evaluation reports for related coverage.

    Limitations to Scope. We did not review the management control program
    related to the evaluation objective because DoD has recognized Information
    Assurance as a material management control weakness area since the FY 1999
    Annual Statement of Assurance.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Information Management and Technology high-risk area.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this evaluation.

    Evaluation Type, Dates, and Standards. We performed this evaluation from
    September 2000 through December 2001 in accordance with standards
    implemented by the Inspector General, DoD. Our scope was limited in that we
    did not include tests of management controls.

    Contacts During the Evaluation. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.

Prior Coverage
    During the past 5 years, the General Accounting Office and the Inspector
    General of the Department of Defense issued reports that discussed the
    vulnerability of transmitted passwords and information assurance policy.

    General Accounting Office
    GAO Report No. GAO/AIMD-98-274, “Financial Management, Improvements
    Needed in Air Force Vendor Payment Systems and Controls,” September 1998




                                       9
Inspector General of the Department of Defense (IG DoD)
IG DoD Report No. D-2000-124, “Information Assurance Challenges—A
Summary of Audit Results Reported December 1, 1998, through March 31,
2000,” May 15, 2000

IG DoD Report No. D-2000-058, “Identification and Authentication Policy”,
December 20, 1999

IG DoD Report No. 99-069, “Summary of Audit Results—DoD Information
Assurance Challenges,” January 22, 1999

Unrestricted Inspector General of the Department of Defense reports can be
accessed over the Internet at http://www.dodig.osd.mil/audit/reports.




                                  10
Appendix B. Military Department Central
            Design Activities

Central Design Activities
     For the purpose of this evaluation, a Central Design Activity (CDA) is defined
     as a designated organization, within a DoD Component, that has responsibility
     for designing, converting, programming, testing, documenting, or subsequently
     maintaining computer operating or applications software for use at more than
     one location.
     Although each Military Department’s definition of a CDA may vary slightly
     from the definition above, they each identified their CDAs (see table below) and
     noted that they had other software development groups that were not CDAs.
     Those other software development groups are not considered CDAs because
     they support software only for the business area organization they belong to, as
     opposed to more than one location as our definition of CDAs requires.

      Military Department Central Design Activities

      Army
      Army Total Personnel Command
      Industrial Logistics Systems Center
      Logistics Systems Support Center
      Software Engineering Center – Belvoir
      Software Engineering Center - Lee
      Software Engineering Center – Meade

      Navy
      Bureau of Naval Personnel
      Fleet Material Support Office
      Naval Aviation Depot Operations Center
      Naval Computer and Telecommunications Area Master Station, Atlantic
      Naval Computer and Telecommunications Station, Jacksonville
      Naval Computer and Telecommunications Station, Pensacola
      Naval Computer and Telecommunications Station, Washington
      Naval Education and Training Professional Development and Technology Center
      Naval Reserve Information Systems Office

      Air Force
      Materiel Systems Group
      Standard Systems Group




                                         11
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
  Deputy Assistant Secretary of Defense, Deputy Chief Information Officer
  Deputy Assistant Secretary of Defense, Security and Information Operations
      Director, Infrastructure and Information Assurance
      Director, Policy Integration and Operations

Joint Staff
Director, Joint Staff
   Director, Operations
   Director, Command, Control, Communications, and Computers

Department of the Army
Commanding General, Army Communications and Electronics Command
  Commander, Software Engineering Center - Meade
Auditor General, Department of the Army

Department of the Navy
Commander, Naval Supply Systems Command
  Commanding Officer, Fleet Material Support Office
Naval Inspector General
Auditor General, Department of the Navy




                                        12
Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Commander, Air Force Materiel Command
   Executive Director, Materiel Systems Group
Inspector General, Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Information Systems Agency
   Commander, Defense Information Systems Agency Western Hemisphere

Non-Defense Federal Organizations
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         13
Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence)
Comments




                   15
TEAM MEMBERS
The Audit Followup and Technical Support Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense who
contributed to the report are listed below.


David A. Brinkman
Kenneth H. Stavenjord
Peter C. Johnson




                                         17
